No. 19-431
IN THE SUPREME COURT OF THE UNITED STATES
_________________
THE LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
PETITIONER
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
RESPONDENTS
_________________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_________________
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX
_________________
Pursuant to Rule 26.8 of the Rules of this Court, counsel for the Little Sisters of
the Poor respectfully seeks leave to dispense with the requirement of a joint appendix
in this case. The questions presented concern whether regulations related to the
preventive-services coverage requirement of the Patient Protection and Affordable
Care Act, 42 U.S.C. 18001 et seq.; see 42 U.S.C. 300gg-13(a), are lawful, and whether
the petitioner has standing to defend the regulations. The opinions of the lower courts
are appended to the petition for a writ of certiorari. Counsel believes that no other
portion of the record merits special attention such as would warrant the preparation
and expense of a joint appendix, and preparation of a joint appendix would not
materially assist the Court’s consideration of these cases. Counsel for respondents

agree that a joint appendix is not necessary. In addition, the Solicitor General has
filed a similar motion in the consolidated case, No. 19-454, with which petitioner
concurs.

March 2020
Respectfully submitted,

Mark L. Rienzi
mrienzi@becketlaw.org

1200 New Hampshire Ave. NW, Suite 700
Washington, D.C. 20036
(202) 955-0095

Counsel for Petitioner Little Sisters

